December 1, 2008

SUSAN M. BROWNELL
VICE PRESIDENT, SUPPLY MANAGEMENT

SUBJECT: Management Advisory – Management of Contract Changes – Flats
         Sequencing System (Report Number CA-MA-09-002)

This report presents the results of our review of the management of contract changes
for the Flats Sequencing System (FSS)1 (Project Number 08YG003CA002). Our
objective was to determine whether the U.S. Postal Service incurred unnecessary or
inappropriate increased costs because of changes to the FSS contracts. The review
was self-initiated as part of a series of reviews on the Postal Service’s management of
contract changes and addresses operational risks in the Postal Service’s contracting
process. See Appendix A for additional information about this review.

Conclusion

We did not identify any unnecessary or inappropriate increased costs to the Postal
Service because of changes to the FSS contracts. Modifications to the pre-production
contract were primarily for funding increases to further R&D efforts. Modifications to the
production contract were primarily for revisions to the statement of work and
enhancements the Postal Service required on FSS equipment. However, we did
identify one area of concern — we could not determine whether the monetary amount
the Postal Service withheld from the contractor was appropriate when contract
requirements were not met.

Valuation of Withheld Payment

The Postal Service withheld $500,000 when a key requirement of the pre-production
contract was not met. However, we were unable to determine whether this was an
appropriate amount to withhold because Postal Service officials did not fully document
the basis for determining whether it was reasonable. According to Postal Service
officials, they based the amount withheld on extensive discussions between supply

1
  There were two contracts awarded to Northrop Grumman in support of the FSS initiative. The first contract
(Contract Number 3AAERD-04-B-0506), referred to as the pre-production contract, was awarded in October 2003 for
research and development (R&D) of the FSS. The second contract (Contract Number 3AAFLT-07-B-0004), referred
to as the production contract, was awarded in February 2007 to develop, purchase, and deploy 100 FSS machines.
The FSS is intended to enhance flat mail processing by sorting flat mail in the precise order that mail carriers walk
their routes, eliminating the need for the carriers to manually sort the mail.
Management of Contract Changes – Flats                                                           CA-MA-09-002
 Sequencing System


management and engineering and it was ultimately based on their professional opinion.
However, management did not document the objective measures that provided a basis
for the $500,000. Consequently, the Postal Service is at an increased risk of not
receiving equitable consideration for contractor nonperformance.

The key requirement not met was the pre-production machine failed to achieve the
throughput2 requirement of 16,500 flat mail pieces per hour during field acceptance
testing. The throughput requirement is a significant requirement of the contract
because if it is not achieved, that will negatively impact the expected savings identified
in the production Decision Analysis Report (DAR). During field acceptance testing, the
pre-production machine processed 13,545 flat mail pieces per hour. During subsequent
demonstration testing, performance improved to 15,704 flat mail pieces per hour
(approximately 5 percent less than the throughput requirement). However, the Postal
Service withheld only a small fraction of the contract value3 (less than 1 percent).

We recommend the Vice President, Supply Management:

1. Require contracting officers to fully document the rationale and basis for determining
   whether withheld payment amounts are reasonable. This should be accomplished
   using objective measures to the extent practicable.

Management’s Comments

Management agreed with the finding and recommendation and has prepared a
memorandum to the file describing the rationale and basis for withholding payments. A
copy of the letter will be provided to the U.S. Postal Service Office of Inspector General
(OIG) for review. Supply Management will cascade the final audit report to contracting
officers and emphasize the need for documenting contract files with decision rationale
and the basis for determining payment adjustments. See Appendix B for management’s
comments, in their entirety.

Evaluation of Management Comments

The OIG considers management’s comments responsive to the recommendation.
Management’s corrective actions should correct the issue identified in the report.

The OIG considers the recommendation significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. The recommendation should not be closed in the
follow-up tracking system until the OIG provides written confirmation that the
recommendation can be closed.



2
    Throughput represents the number of flat mail pieces the FSS machine processes and sorts per hour.
3
    The pre-production contract is valued at approximately $53.7 million.




                                                          2
Management of Contract Changes – Flats                                  CA-MA-09-002
 Sequencing System



We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Judy Leonhardt, Director,
Supply Management, or me at (703) 248-2100.


   E-Signed by Darrell E. Benjamin, Jr
   VERIFY authenticity with ApproveIt

Darrell E. Benjamin, Jr.
Deputy Assistant Inspector General
 for Support Operations

cc: H. Glen Walker
    Robert D. D’Orso
    Susan A. Witt
    Katherine S. Banks




                                          3
Management of Contract Changes – Flats                                                 CA-MA-09-002
 Sequencing System


                           APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

A core daily activity of Postal Service letter carriers is to manually sort mail into delivery
sequence order. The Postal Service uses high-speed automated equipment to perform
this function for letter mail, but carriers currently handle the approximately 53 billion
annual flat mail pieces4 manually.

xx xxxxxxxx xxxx, xxx xxxxxx xxxxxxx xxxxxxxx xxx xxxxx xx xxx xxxx xx xxxxx
xxxxxxxxxxx xx xxx xxx. xxx xxxxx xxx xxx xxxxxxxx xxx xxxxx xxxxxxx5 xx xxxxxxx
xxxxxxx xxx xxx. xx xxxxxxx xxxx, xxx xxxxxx xxxxxxx xxxxxxxxxxxxx xxxxxxx xxxxxxxx
xxxxxxx x xxxx xxxxxxx xxxxxxxx xxx xxxxxxxxxxx xx xxx xxxxx xxx, xxxxxxxxxxxxxx
xxxxxxxxx. xx xx xxxxxxxxx xx, xxxx, xx xxxxxxxxxxxxx xxx xxxx xxxx xx xxx xxxxxxxx
xxx xx xxx xxxxxx xx xxxxx xxxxxxx.

xx xxxxxxxx xxxx, xxx xxxxxx xxxxxxx xxxxxxxx x xxxxxx xxx xxx xxxxx xxxxxxx xx
xxxxxxx, xxxxxxxx, xxx xxxxxx xxx xxx xxxxxxxx xx xx xxxxx. xxxxxxxxx xx xxx xxx, xxx
xxx xxxx xxxxxxx xxxx xxxx xx xxxxxxxx xxxxxxxx xxxxx, xxxxx xxx xxxxxxxx xx xxx
xxxxxxx xxxxxxx xxxxxxxxxx xxxxxx xxxxxxx. As a result, the primary benefit of the
FSS will be eliminating carriers’ casing of manual flat mail. Once deployment is
complete,6 the Postal Service is projecting annual operating savings of $599.5 million.
xx xxxxxxxx xxxx, xxx xxxxxx xxxxxxx xxxxxxx xxxxxxxx xxxxxxx x xxxxxxxxxxxxxx
xxxxxx xxxxxxx xxxxxxxx xxx xxxx xxxxxxxxxx. xx xx xxxxxxxxx xx, xxxx, xxx
xxxxxxxxxxxxx xxx xxxx xxxx xx xxx xxxxxxxx xxx xx xxx xxxxxx xx xxxxxx xxxxxxx.

OBJECTIVE, SCOPE, AND METHODOLOGY

Our objective was to determine whether the Postal Service incurred unnecessary or
inappropriate increased costs because of changes to the FSS contracts. Specifically,
we reviewed contract modifications to determine the reasons for the changes and
determined if the changes were necessitated due to poor contract planning or
inappropriate concessions to the contractor.

To accomplish our objective we obtained and reviewed the FSS pre-production and
production contract files including the basic contracts and modifications. We
determined the purpose for each contract modification and whether the modifications
materially changed the scope of the basic contracts. We analyzed modifications to
determine whether they were properly approved, documented, and executed. We also
interviewed key contracting personnel, including the contracting officer.



4
  Examples of flat mail include magazines, large envelops, newspapers, and catalogs.
5
  xxx xxxxx xx xxxxxxxxx xxxxx xxxxxxxxx xxxxxxx xxx xxx xxx xx xxxxx xxxxxxx.
6
  Deployment of all 100 machines (Phase 1) is scheduled to be completed in 2010.




                                                        4
Management of Contract Changes – Flats                                   CA-MA-09-002
 Sequencing System



In addition, we reviewed:

   •   The letter sent to Northrop Grumman granting conditional approval of the FSS
       pre-production machine.

   •   Two DARs related to the FSS.

   •   The Postal Service’s quarterly investment report to determine whether schedule
       slippages were fully disclosed.

We conducted this review from July through November 2008 in accordance with the
President’s Council on Integrity and Efficiency, Quality Standards for Inspections. We
discussed our observations and conclusions with management on October 30, 2008,
and included their comments where appropriate. We did not rely on computer
generated data to support our finding.

PRIOR AUDIT COVERAGE

                                   Final Report
                    Report             Date       Monetary
 Report Title       Number                         Impact           Report Results
Flats              DA-AR-         June 4, 2008      None         To enhance FSS
Sequencing         08-006                                        program success,
System:                                                          the Postal Service
Production                                                       needed to focus
First Article                                                    greater attention on
Testing                                                          several areas to
Readiness                                                        better prepare for
and Quality                                                      production first
                                                                 article testing and
                                                                 improve production
                                                                 quality.




                                             5
Management of Contract Changes – Flats                                    CA-MA-09-002
 Sequencing System




Flat               DA-AR-         July 31, 2007       None        Engineering needed
Sequencing         07-003                                         to focus more
System Risk                                                       attention on risk
Management                                                        management
                                                                  standards to ensure
                                                                  the significant risks
                                                                  associated with
                                                                  deployment of the
                                                                  FSS are adequately
                                                                  identified and
                                                                  managed.
Flats              CA-CAR-        December 29,    $91,710,395     This audit disclosed
Sequencing         07-005         2006            in questioned   questioned costs of
System                                            costs           $91,710,395.
Production                                                        Questioned costs
Revised                                                           primarily
Proposal                                                          represented direct
Submitted by                                                      material and labor.
Northrop
Grumman
Corporation,
Electronic
Systems
Company
Flats              CA-CAR-        December 4,     $175,670,235    This audit disclosed
Sequencing         07-003         2006            in questioned   questioned costs of
System                                            costs           $175,670,235.
Production                                                        Questioned costs
Proposal                                                          primarily
Submitted by                                                      represented direct
Northrop                                                          material and labor.
Grumman
Corporation,
Electronic
Systems
Company




                                              6
Management of Contract Changes – Flats                    CA-MA-09-002
 Sequencing System


                      APPENDIX B: MANAGEMENT’S COMMENTS




                                         7
